<html>
<title> - MARKUP OF H.R. 6116, THE FAIR ELECTIONS NOW ACT TO REFORM THE FINANCING OF HOUSE ELECTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





  MARKUP OF H.R. 6116, ``THE FAIR ELECTIONS NOW ACT,'' TO REFORM THE 
                      FINANCING OF HOUSE ELECTIONS

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

               Held in Washington, DC, September 23, 2010

                               __________

      Printed for the use of the Committee on House Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html








                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             DANIEL E. LUNGREN, California,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director

 
MARKUP OF H.R. 6116, THE FAIR ELECTIONS NOW ACT TO REFORM THE FINANCING 
                           OF HOUSE ELECTIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2010

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:06 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Capuano, Gonzalez, 
Davis of California, Davis of Alabama, Lungren, and Harper.
    Staff Present: Jamie Fleet, Staff Director; Khalil Abboud, 
Professional Staff; Tom Hicks, Senior Elections Counsel; 
Janelle Hu, Elections Counsel; Jennifer Daehn, Elections 
Counsel; Matt Pinkus, Professional Staff/Parliamentarian; Kyle 
Anderson, Press Director; Shervan Sebastian, Legislative 
Assistant, Elections; Greg Abbott, Professional Staff; Darrell 
O'Connor, Professional Staff; Victor Arnold-Bik, Minority Staff 
Director; Peter Schalestock, Minority Counsel; Karin Moore, 
Minority Legislative Counsel; Salley Collins, Minority Press 
Secretary; Katie Ryan, Minority Professional Staff; and Mary 
Sue Englund, Minority Professional Staff.
    The Chairman. Good morning. I would like to call the 
Committee on House Administration to order. Today, we markup 
H.R. 6116, the Fair Elections Now Act, sponsored by 
Representative Larson of Connecticut. The Fair Elections Now 
Act is a voluntary program and would allow qualified House 
candidates to run for office utilizing a blend of contributions 
from small-dollar donors and limited public matching funds. It 
is designed to change the current system of campaign 
fundraising, which largely relies on large donors and special 
interests. It does not limit or discourage spending by outside 
groups but instead aims to ensure that these voices are not the 
only ones that can get heard in public debate. It is about 
encouraging more speech, not less.
    I am sure that there are questions as to why this bill is 
needed now. The American people are frustrated and want 
Congress to focus on the economy and fixing our Nation's 
problems, yet they see in Washington a never-ending money chase 
fueled by lobbyists and big donors. The average American feels 
that he has been left out and his problems ignored. If our 
constituents are to know that we work for them, we have to 
change the way we operate and run our campaigns.
    I support the Fair Elections Act Now because it will put 
our elections back in the hands of ordinary working Americans 
instead of us relying on corporate lobbies to form their 
political campaigns. By creating a competitive system that 
relies on small-dollar local contributors and matching funds, 
congressional candidates can focus on the people back home in 
their districts and the work that needs to be done.
    If we are to have a government that is fair, effective, and 
accountable, we need to have a system in which individual 
voters are as important as corporate lobbyists. We need an 
electoral system in which a coal miner's voice can be heard as 
clearly as the owner of the mine he works in.
    It is not easy to change the system. It will cost time and 
money to change the status quo. But this program is a 
responsible investment in good government and will likely save 
American taxpayers money over the long run. For example, we 
lose an estimated $70 billion to $100 billion every year in tax 
revenue due to offshore tax schemes and loopholes written into 
the law at the urging of lobbyists. By contrast, the cost of 
the Fair Elections Act Now is approximately $4 per voting age 
citizens per year.
    This is not about favoring one party or the other in a 
tough election year. Whether Republicans or Democrats, we have 
all been elected to represent Americans first, and we all share 
an interest with the people we represent in having a government 
that is accountable, effective, and transparent. We need a 
system that puts Americans first.
    I would like now to recognize my ranking minority member, 
Mr. Lungren, for any opening statement.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Chairman, I do appreciate your personal commitment to 
the committee process and the committee hearings. And I want to 
thank you for that. As someone once wrote, Congress in session 
is Congress on display, but Congress in committee is Congress 
at work. As I have said before, we have all worked well 
together here in this committee and I appreciate your civility 
and your sincerity. I do, however, question the need for our 
presence here today.
    Now one would wonder why I would say that since members on 
your side of the aisle on your official campaign committee are 
doing their best to put me out of this place and are sending 
all sorts of messages around this town that the reason I am 
vulnerable is because my opponent is raising so much money. 
That is the total and sole reason why they are gauging the race 
in my particular district that way--the amount of money that 
the Democrat is raising outside the district.
    So I find it interesting to be here at a time when the 
majority is bemoaning the fact that that is the case when they 
are displaying and advertising the fact that that is how we 
ought to judge whether someone is a worthy candidate or not.
    Having said that, however, I will stand on principle here 
today. With the innumerable, innumerable pressing needs 
affecting citizens in this country, in my State of California, 
in my district--the national unemployment rate may be near 10 
percent. It is over 12 percent in the State of California. It 
is in excess of 13 percent in my district. I have some 
communities where it is approaching 20 percent. If you go 
further down in the Central Valley of California, you have 
communities that have 40 percent unemployment. My constituents 
and those throughout California have begged, have literally 
begged the Federal Government to pay attention to the economic 
problems affecting us. In other words, they have asked us, What 
about jobs? Where are the jobs; where is the promised jobs that 
came out of this administration and the majority leadership?
    But instead of us doing something like that, we are going 
to name I think another post office today on the floor of the 
House. And I have nothing against naming post offices, it just 
not ought to be our sole responsibility around this place. We 
are going to again be engaged in suspension calendar 
activities. And so what are we going to do here? We are going 
to hold a markup on a piece of legislation that furthers an 
idea that has been rejected soundly by the American people time 
and time again. Time and time again the American people, when 
given the chance to look at something like this, have said, We 
don't want it.
    According to a recent Congressional Research Service 
report, the number of tax returns containing a check in the 
box--and that is the way you vote on this subject--supporting 
voting financing for presidential elections has declined from 
its peak in 1980 of 28 percent to a new low last year--we set a 
new record--7.3 percent. The American people are going in one 
direction and in this committee we are told to go in another 
direction.
    Recently, in my home State of California, that State which 
is suffering from unemployment, I think third in the country, 
of over 12 percent, Proposition 15 legalizing government 
financing on campaigns was soundly defeated by a margin of 15 
percent. That is by a margin of over 750,000 votes. Now maybe 
that is not here, but I happen to think that is important.
    We ought to listen to what the people are telling us. And 
while proponents like to point to the State systems of 
government financing of campaigns in Maine and Arizona, they 
are hardly models we should follow. A recent GAO report found 
that the systems in those States, in Maine and Arizona, have 
not met any of their stated goals. In addition, recent reports 
out of Arizona state that candidates have been using public 
funds as their own personal slush funds. The Phoenix New Times 
in 2009 reported that candidates using the public financing 
system have been using government funds on important expenses 
like sushi, segway ramps, and hiring startup consulting firms 
coincidentally owned by the candidate.
    I have mentioned time and time again also that during this 
campaign season we have seen people at rallies who are 
purportedly members of the Tea Party who turn out not to be 
members of the Tea Party with their pictures of Hitler and 
making the President look like Hitler. They are members of the 
LaRouche Group, which happens to be, unfortunately, a segment 
of the Democratic Party. But the point I am making is Mr. 
LaRouche has been able to use public financing even when he sat 
in prison to run for President of the United States using 
public funds.
    So, as I said in our last committee hearing on this issue, 
I believe the electoral process is a way for individuals to 
exercise their right of freedom of expression. It is 
unwarranted and undesirable to expand the government with a new 
Fair Elections Oversight Board overseeing the Federal Elections 
Fund, deciding how much elections should cost and how much 
candidates should receive to pay for them.
    I might add that the funding mechanisms I find in this bill 
are interesting. They are supposed to pay for the new program, 
but the funding exists on paper only. The money isn't there. 
Proceeds from the spectrum auction--I might just mention, the 
main funding source in this bill--were already allocated or 
returned to the Treasury, presumably to pay down part of the 
national debt, after the auction was completed in 2008. The 
other funding source, fines from the FEC, would return the 
magnificent sum of $1.1 million in revenue a year under the 
bill. That isn't enough money to fund a single campaign.
    So instead of producing a budget, instead of passing 
appropriation bills, instead of growing our economy and 
reducing the massive deficit and even larger national debt, we 
are now asking taxpayers to pay for elections. Because if in 
fact the money from the spectrum is gone and there is literally 
no money or $1.1 million a year from the FEC, you go to the 
other sections of the funding part of the bill and it comes out 
of appropriated funds. Now that is not magic. That is money, 
taxpayer moneys or further debt appropriated by the Congress of 
the United States for the purpose of this bill.
    Look, we have talked about this before. I don't know a 
single member on this committee who enjoys raising funds. If 
you did, I would think there was something wrong with you. I 
probably like it the least of anybody on this committee. But so 
long as the United States Supreme Court interprets the 
Constitution and the First Amendment to say that if you have 
your own money, you can spend it on your own campaign; that is, 
that money is speech--and I don't think they are ever going to 
change, I am not suggesting they change--I think we are in a 
conundrum. And I think there are other ways to address this.
    I would certainly take limits off of what political 
committees could give to campaigns. Actually, I would move in 
the opposite direction. I would take the limits off of 
individual contributions but make them reportable immediately, 
electronic reporting within 24 hours of receipt so that 
everybody could know where you get the money. And if in fact 
you are going to get a large amount, we could decide whether 
the amount was $20,000 or whatever it is from one individual, 
make sure that comes in 10 days before an election so that 
everybody would have an opportunity to see it.
    Those are kinds of reforms that I think would help us go as 
I think we would all like it to go. So I am sorry to say that I 
think the bill is a bad idea. I hope the members will reject it 
soundly.
    I thank you for the time. And I yield back.
    The Chairman. I thank the gentleman.
    Any other additional opening statements?
    Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I want to commend you 
for calling this markup on the fair and clean elections bill. I 
wanted also to note my gratitude to Congressman John Larson for 
his extraordinary efforts in trying to move this bill forward 
and his leadership on the overall issue.
    I do support this bill. As a matter of facts, I am a 
cosponsor of the bill. I believe that establishing a voluntary 
system so that members can raise small donations from 
individuals rather than corporate interests will make elected 
officials more responsive to the needs of the people they 
represent, and I think this bill provides that opportunity.
    Members of Congress spend a large amount of time raising 
money, and I think all of us on both sides of the aisle would 
rather spend that time working on the issues that are before 
the country and before the Congress.
    Now, having said that, I listened carefully to the ranking 
member's comments. But I think, and he would agree, that being 
responsive to constituents is not a partisan issue. That is 
something that both sides of the aisle, each Member of 
Congress, hopes to do. And I think that this measure would 
enhance that.
    I didn't attend the rally that Glenn Beck held on the 
Capitol, but I saw some of the groups that were interviewed at 
the time. And everybody who was there who was kind of a Tea 
Party proponent, a conservative group, said that they also 
would like to see a decrease in corporate influence on 
elections.
    So I think this really is a broad call across the political 
spectrum for special interests to have less of the say.
    Now that is not to say that when people make contributions 
that they in fact get any special edge. I certainly would not 
allege that. But the perception is it is not healthy for our 
democracy. And so to the extent that we can limit that 
perception, we will strengthen our democracy. And I think this 
bill does that.
    There is a long set of court decisions in the Supreme 
Court--the Buckley case; the Connecticut Green Party case; the 
McComish-Bennett case most recently, the Duke-Leake case in 
North Carolina, all upholding public financing. This bill is 
supported by a number of very fine advocacy groups, including 
Common Cause and the League of Conservation Voters. I think it 
would be a good step forward for our democracy, and I hope that 
we will pass it out today and that we will have an opportunity 
to make this bill into law.
    I would note--and I am also from California--that yes, we 
have a very serious economic problem, not only in California 
but in our entire country. We are digging our way out of the 
huge ditch that we fell into in the fall of 2008. But I think 
that our constituents want to know that we are not--that the 
Congress is not beholden to the offshores. They want to know 
that we are beholden to the little guys that are sending in $5 
or $10 checks, not the offshores who have caused some of this 
economic downturn.
    And just a little point of clarification, in addition to 
post offices, today we are bringing up the Small Business 
Lending Fund Act of 2010, which is enormously important for job 
creation in the country. And I know that Mr. Lungren did not 
mean to slight that. But that is also on our agenda in the 
House today, a very important measure.
    And I thank the chairman for recognizing me and yield back.
    The Chairman. Any other opening statements?
    Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    I have serious objections to this bill, not the least of 
which is the timing. The unemployment rate in my home State has 
remained between 10 percent and 11 percent this year and we 
have people hurting all over the country. And so when you have 
a time like this when so many people are out of work, don't 
have jobs, don't have income, and we are going to add to the 
taxpayer burden of those who are working really makes no sense 
at this time.
    Putting the audacity of the concept aside, this bill adds 
insult to injury by creating a new Federal program that isn't 
even funded. Of course, the last thing we need around here is 
another new Federal program. So it isn't just current taxpayers 
that we are asking to pay for our campaigns. It is the future 
taxpayers who will have to pay off the money we borrowed to do 
it.
    Even if you give all of the FEC fines collected annually 
instead of 50 percent, it doesn't touch the surface of that 
cost. And certainly I do agree that no one enjoys having to 
raise money for a campaign. But it is part of that process. And 
it certainly means that people give to the candidates of their 
choice and who they want to. And here we are going to force 
taxpayers to give contributions in effect to everyone, even 
those that they might completely disagree with.
    The other funding mechanism is the revenue generated from 
previous analog spectrum auction sales, and let's just be 
honest, that money is not there. It has either already been 
spent or returned to the Treasury. So there is no money set 
aside. This is not paid for. There is no revenue to pay for 
this taxpayer funded campaign scheme other than running the 
currency printing presses like we have done at a record pace 
these past 20 months. And I am sure it is no surprise there is 
no CBO score on this.
    Mr. Chairman, as the ranking member has noted, I and my 
colleagues here certainly appreciate your commitment to the 
committee process and your respect for civility and fairness. 
However, I cannot support this misguided bill. And I would urge 
my colleagues to join us in voting ``no.''
    Thank you.
    The Chairman. I thank the gentleman.
    Any other speeches?
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. First of all, I would 
like to thank you for having this markup, and I would like to 
thank Mr. Larson from Connecticut for his hard work on this. 
Without his continuous push, we wouldn't be here today.
    I want to be real clear. I fully agree that there are other 
issues that are important in this country and that we should be 
dealing with. No problem with that at all. But that doesn't 
mean we should not be dealing with this as well. Maybe I am the 
only person that can do one thing at a time, but I don't think 
so.
    So to think this is not an issue, everyone has said and 
will continue to say that they don't like raising funds, yet 
they are not willing to do anything about it. I don't like it. 
I don't like the perception it leaves. And this is the best 
proposal I have seen to end our need to be on the money 
treadmill, which I really do hate. I don't just say I hate it. 
I actually want to do something about it. And if others have a 
proposal on how to get us off it, I am more than happy to 
listen.
    I am not stuck on this particular proposal. It just happens 
to be the one that is best suited that I am aware of at this 
time. I am more than happy to work with anyone to get us off of 
that treadmill. And it is not just me wanting to get off it. It 
is also me trying to get the American public to understand and 
to accept and to believe, more importantly, that we are not 
beholden to those people who donate to us, especially those 
people who donate large sums or, under some proposals, who 
donate unlimited funds.
    As far as Mr. Lungren goes, I look at this as simply my way 
to try to help you in your race. And I hope you take it that 
way, because that is my clear intention.
    I don't like the idea of people being judged and I decide 
by the amounts of money they can raise. It is not a fair way to 
do it. It is not an accurate way to do it. And even if it is or 
it isn't, it is not a good way to do it. I am sitting here 
today, when I ran in 1998, my first race, I was seventh in 
money. I was outspent 12 to 1 by one of my opponents. I didn't 
like it but that is what I could raise, what I could do, and he 
could write a check. So be it.
    I am simply trying to find a way to do it. If there are 
other proposals, I am more than happy to listen and work with 
people to get us off it. But it is either that or stay on the 
treadmill and stop complaining. And for me, it is not a joke. 
Not a joke just to me. It is not a joke sociologically, it is 
not a joke politically, governmentally. It is not good what we 
are required to do in order to get here and to stay here. It is 
not good for us, it is not good for the American public, it is 
not good for the system, and it is not good for the people that 
want to sit back and complain about the whole thing.
    So that is how I look at it. This particular bill in front 
of us, I like it in general. I have some concerns with some 
specifics. I will have an amendment later on. As far as where 
the money comes from, I am more than happy to find other 
sources of revenue. Again, I am not stuck with these. These are 
as good as any. But if somebody has a better idea, I am more 
than happy to listen and work with them as we go forward.
    So I think like many things that we are faced with in 
Congress, and it is not just in Congress, it is at the State 
legislator level, the school committee level, we don't get to 
do what we want to do. We get to choose amongst the choices 
that are before us. And in this particular case, as in so many 
cases, doing something is better than doing nothing. And this 
particular bill is a clear and equivocal step forward and a 
clear and equivocal step away from the money treadmill that we 
are forced to get on, and I think it will be a great step 
forward in gaining more trust amongst the American people.
    With that, I yield back.
    The Chairman. Any other statements?
    Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. I want 
to thank you also for bringing this up. I know my colleagues 
have said that we need to be focusing on what is going on in 
the country right now, and I can't agree with you more, and 
that is why I certainly would encourage you to join us in 
looking at the small business bill today. But I also think that 
because the elections are only 41 days away, this is the time 
that people are really focusing on the elections. And the 
reality is, what are they asking? They are wondering how much 
people have raised and they are wondering where that money has 
come from. That is what people are interested in. That is what 
the pundits are interested in, and that is generally what the 
media is concerned about. And we know that it takes about a 
million dollars to even have a chance to win a House seat. Even 
to have a chance.
    So for those people who want to serve their country as an 
elected official here, and they find out about the million 
dollar job qualification, then they have to start thinking 
about where are they going to go for that kind of cash. Where 
are they going to find it. And where they are going to find it, 
unfortunately, sometimes is turning to bigger donors. It is 
going wherever they can, to PACs, to lobbyists, to CEOs, and to 
wealthy individuals.
    We are at the point where wealthy interests are spending $8 
on campaigns for every $1 that comes from small donors. And we 
know that a candidate's ability to get elected depends on how 
many big checks he or she can collect. Then it becomes obvious 
and I think a shame that the public perceives Congress as being 
bought and paid for by special interests. And I, obviously, 
hate to see that. And I honestly don't believe that my 
colleagues base their votes on their campaign contributions. 
But from time to time there are some bad apples. And the 
perception of a quid pro quo is toxic, absolutely toxic for our 
institution and for our democracy.
    We also know that the amount of time required to fund-raise 
is problematic because it interferes with our focus on kitchen 
table issues. I don't think we can ever forget that it is all 
about we the people. No matter which side of the aisle is 
saying that, it is about we the people. And our job is to solve 
people's problems and not to make calls to special interests.
    So I wish we could do away with fundraising altogether. I 
don't like it any more than anybody else does. But I know that 
there need to be some base parameters so that the public can 
determine whether candidates are viable. That is important to 
be able to get one's message out. So creating truly clean 
campaigns where the many and not the big few have the loudest 
voice is not easy. But this is one strong solution that has 
come forward. The Fair Elections Now Act is about as close to a 
solution as we have been able to get.
    And I think we could argue all day about the details. I 
agree. Honestly, I could tweak, change, do different things 
with the bill. But we have it before us today. And I think that 
Representative Larson has worked very, very hard to get the 
best kind of input on this and to try and draw something that 
is important. And we do have considerations about funding. The 
economy certainly is hurting. We all feel that for our 
constituents deeply. But campaigns--clean campaigns aren't 
free. We are really looking at the cost of about a fancy cup of 
coffee today that we need to think about in terms of individual 
citizens.
    I just urge my colleagues to support the clean elections 
and I hope that we can have a good discussion on it.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    Mr. Davis.
    Mr. Davis of Alabama. Mr. Chairman, thank you for calling 
on me. There are a lot of very admirable impulses behind this 
bill. The author of this bill, the chairman of the Democratic 
Caucus, John Larson, is one of the ablest Members of the House 
of Representatives. And every one of us on this committee in 
some way, shape or form bemoans the presence of big money 
politics and every one of us on this committee laments the 
amount of time that candidates have to spend raising money. But 
let me take just a few moments to say why one Democrat does not 
support this bill.
    Reason number one. If we want to look at what happens when 
you resort to public financing, we don't have to look to 
another countries, we don't have to look to any particular 
State. We can look at the American presidential election 
system. After Buckley v. Valeo became the law of the land and 
matching funds were instituted in the mid-1990s, what happened? 
A spate of minor fringe candidacies showed up in the Democratic 
and Republican Parties and became the parents of an extremism 
in American politics that is still with us today.
    The Lyndon LaRouche movement was born out of Federal 
financing of campaigns. Many strands of the extreme left and 
the extreme right were born out of the Federal financing of 
campaigns and the lure that if you show up in some way, shape, 
or form, you will find a way to get some money to stay in the 
contest. What happened? In 2008, an election where a large 
number of small donors participated in the political process, 
the Democratic candidate, the President that this side of the 
aisle is very proud of, opted out of the Federal financing of 
campaigns and the sanctions that were put in place around that 
process.
    We don't have to guesstimate, we don't have to imagine what 
will happen if we institute Federal financing of congressional 
campaigns. There will be three specific consequences. The first 
one is this. More minor candidates, more fringe candidates, 
more candidates who have their pet cause, their pet issue, and 
will use it to pull the Democratic Party further to the left 
and the Republican Party further to the right.
    The second thing that will happen, most Members of Congress 
will no more follow this system than they will sit down to read 
a treatise on the budget tonight. Most Members of Congress will 
decide that they don't need this system. They will break out of 
it. They will do what they wish to do. Tom DeLay would have 
never participated in this process. The most well-heeled 
Members of Congress, the very sectors in Congress that we fear 
might be too greatly influenced by money, will be the first 
ones to opt out of it. The influence will remain whether or not 
the system is in place.
    And, finally, who will benefit from public financing of 
congressional campaigns? It is not the student who comes to 
D.C. during the summer who is inspired for a season to believe 
in politics. It is not the person sitting at home who is 
watching C-SPAN right now trying to learn more about democracy. 
It is the person who has access to a 20,000-long e-mail list or 
an organization that has access to a large list of e-mails or a 
large list of names. In other words, it will be special 
interests. They may not be corporate but they will still be 
narrow, they will still be discrete, they will still insular, 
and they will focus on organizing and mobilizing people who 
participate in the political process and have the benefit of 
public financing to further the candidates of their choice.
    So for all the good, admirable goals around this process, 
there is only one step, Mr. Chairman, that would really make a 
difference, and the Supreme Court has, unfortunately, taken it 
off the table. That would be if expenditures could be limited. 
If you don't limit expenditures but you simply change the rules 
of the game, you create a shell game where the money simply 
moves from one place to another and campaigns still have the 
big money but the big money masquerades under different names. 
And it is not the people who benefit. It is the interests in 
the extremes on both sides who thrive and prosper.
    So I do think that we should go back to the drawing board--
or the individuals returning in the next Congress should go 
back to the drawing board, because this is an important 
question. But the presidential process and the public financing 
of presidential campaigns tells us in a very clear way that not 
only will this not work, it will leave us in fundamental ways 
worse off than we are today.
    The Chairman. I thank the gentleman. Any other statements? 
Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Mr. Chairman. I am going to 
disagree, obviously, with my colleague, Mr. Davis, even though 
I think he has made an excellent argument for many things. But 
truly it is a matter of choice at this point, and that is, do 
we just throw up our hands in frustration and say that the 
system cannot be improved? The Supreme Court is going to rule, 
has ruled, will continue to rule, in a way that we believe 
doesn't really assist in the democratic process. But it is 
their interpretation of the Constitution of the United States, 
and we all take an oath to uphold it.
    We are going to have our own differences of opinion with 
the other party, not for the same reasons as articulated by Mr. 
Davis. But it is an interesting argument. But at the end of the 
entire debate I think it is an improvement because it extends 
the opportunity to those that may not have the opportunity to 
seek public service.
    Are we encouraging opposition? Sure. Are we going to have 
more crowded ballots? Maybe. Do we promote a system that 
excludes the more reasonable moderate voices in each party? 
Maybe. But not to move in this direction is a lot worse. It is 
not perfect. Nothing we do up here is perfect. We strive to 
improve the system, and I think this is what this bill does.
    I will be honest with you, I didn't get on the bill 
initially, and I had my conversations with Mr. Larson and I had 
them with my constituents. Because they saw this as the silver 
bullet. And I actually cited some of the same reasons that Mr. 
Davis cited for the proposition that it is not the complete and 
entire answer.
    We can't do anything about somebody that wants to spend 
$120 million out of their back pocket. I wish we could. It is 
the answer. In Texas, we do have campaign limits on judicial 
races, which is being challenged right now in the courts. And 
it has been a good thing, by the way. But this is a step 
forward. It is an improvement on a system, a system that is 
coming apart. And we have to acknowledge that technology and 
how we communicate and we have to make those adjustments.
    Sure, somebody with a list of many, many e-mail addresses 
can do many things. Well, guess what? We can do the same thing. 
It is available to us.
    I will say this. I am sorry that I disagree with Mr. Davis. 
And I am more sorry, Artur, that you are not going to be here 
next session because I think he is one of the brightest minds 
that we have ever had in Congress, at least since I have been 
here for 12 years. But it is a debate and it is a good faith 
one. And maybe that is what will endure: that we have a good 
faith debate, that we move forward and do what we can with what 
we have.
    With that, sir, I yield back the balance of my time, Mr. 
Chairman.
    The Chairman. I thank the gentleman. Any other statements? 
I guess not; everybody spoke. The only thing I would like to 
add is to thank Congressman Larson. We talk about how in 
Congress there is never a perfect bill. Well, I have never seen 
a perfect bill, but it is a start. And he had the courage to 
start it up, to get it on our committee, and whether it passes 
this committee or not, whether it goes to the floor or not, 
whether it passes the other body or not, no matter what happens 
to it, it is a start. And he had the courage to bring it up. 
And I think the American people are out there begging for a 
start.
    As my friend Mr. Lungren says, he hates making these calls. 
Everybody hates making these calls because you are like begging 
for dollars out there for yourself; you have got to sing for 
your own supper. I got to tell you, I am fortunate I have never 
made one in my life. Don't know if I would start. If I had to, 
I probably wouldn't be sitting here. I would be joining Mr. 
Davis going out to the nice bright new world and not have to 
worry about these bells ringing. And I agree with Mr. Gonzalez, 
we are absolutely going to miss you because I don't listen to 
many people, but I listen to you when you speak, and what parts 
I can understand, I get. That is no disrespect for you. That is 
on me. That is on me.
    Again, my problem with not demonstrating that we are doing 
something is in the City of Philadelphia we have this new 
reform system about pay-to-play. That is my problem. My problem 
is with big business coming in--not big business--big money 
people coming in and then people look at how you vote and they 
figure you voted because this person gave you this large amount 
of money and then you are in this pocket or in that pocket. And 
then what do you do when both sides of an issue happen to 
contribute to your campaign. You have to recuse yourself. We 
would never get 219 votes out there to pass anything.
    So it is a start, and it is a start in the right direction. 
Where it ends up, I hope it ends up someplace, but I am happy 
and I was more than happy to have this hearing to, again, thank 
Mr. Larson for giving us a starting position to where we can 
start out and hopefully try to rectify some of the ills that 
this system does provides for us, what we need to do and how we 
need to do it to maintain our seats or to get elected into this 
Congress.
    So, with that, I would now like to call up before the 
committee H.R. 6116. Without objection, the first reading of 
the bill is dispensed with and the bill is considered as read 
and open for amendment at any time.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Is there any debate? Any amendments?
    Mr. Lungren.
    Mr. Lungren. Mr. Chairman, I do have an amendment.
    The Chairman. Without objection, the amendment is 
considered read and the gentleman is recognized for 5 minutes.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lungren. Before I start talking about the amendment I 
think we should make one thing clear to people listening to 
this debate. Under current law, and this does not change with 
this bill or any suggestion I have seen, there are no direct 
corporate or union contributions to campaigns. We do have a 
system where PACs--political action committees--supported by 
those who are identified with a particular interest, in some 
cases a corporation or in some cases a union, are allowed. And 
I just hope that anybody listening does not mistake that.
    Mr. Chairman, this is a simple amendment that I hope will 
be acceptable to members on both sides. The amendment would 
provide that any funding for the bill, whatever its source--I 
think there are four different sections or four sources here--
would not be authorized if there is a deficit in that 
particular year, and that in the case of a deficit any funds 
allocated to the bill's programs will be used for deficit 
reduction.
    We have heard a lot about what the American people want in 
our debate here, and one of the things I have found loud and 
clear from groups of all types in my own district is they would 
like us to stop spending and to draw down on the debt. But in 
this case just make sure we don't increase the deficit.
    There seems to be a reflexive position in this Congress 
that whenever we see a problem, the easiest solution is to just 
tax taxpayers to solve that problem. At least I have noticed in 
my district and in my State that the people are rejecting that 
notion.
    So, given the fiscal state of our government at the present 
time, I think it is important that the House and the Congress 
prioritize. I respect the gentleman from Massachusetts who 
suggested that we can do more than one thing at once. And I 
agree with that. I don't think that is the problem in this 
Congress. I think the problem is, in doing that, we don't 
prioritize, we don't decide what is truly essential, what is 
important.
    There are certain programs and certain projects that are 
necessary. In my view, this program is not even desirable. But 
even if it were, I believe that it is not necessary, 
particularly at this time. If members want to go down this 
path, can we at least agree not to dig ourselves further into 
debt in the process.
    So I think I have made it clear that I don't agree with the 
principle of this bill, but I would hope that we could agree we 
should not make our deficit even worse.
    The last comment I would make is this. Reference has been 
made to the Supreme Court, and so forth. The fact of the matter 
is the Supreme Court in this area is required to explicate the 
contours of the First Amendment. And, as I said, so long as 
they have said that you cannot stop someone from spending their 
own money for speech, we have to deal with that.
    This Congress attempted a number of years ago to deal with 
that problem in saying that the individual limits that are on a 
campaign would be taken off and--I forget-- either doubled or 
tripled, if in fact your opponent was so wealthy that he or she 
contributed a specific amount of money based on a formula to 
their own campaign. And I recall this happening in my own 
campaign in 2004, when in the primary one of my opponents 
contributed $1.2 million to her own campaign. It was kind of 
interesting. The threshold was not--the postponement of the 
meeting of the threshold was the way in which she put the money 
towards her campaign so that when that millionaire's clause 
came into effect, it was rather late in the game and so it made 
it more difficult for those in my situation to be able to 
respond. But we did. As we know, subsequently the U.S. Supreme 
Court has told us that you cannot do that.
    So where we tried to manufacture our response to the 
realities of the First Amendment in a way that we thought would 
make it more equal and would help candidates who are not 
wealthy, the Court told us that we could not. And that is one 
of the realities that we have to deal with. I just don't think 
this bill brings us in the right direction. But even if it did, 
let's at least make sure that we don't add to the burden of the 
taxpayers in the process.
    And so that is what my amendment would simply do. So long 
as we still have a deficit, the funding in this bill would go 
towards getting rid of that deficit for that year as opposed to 
funding this. And in those years when we actually have a 
balanced budget for a year, then we could look at other things, 
and this would be one of the things that we would seriously 
look at.
    So I would yield back the balance of my time.
    The Chairman. I thank the gentleman. Any additional debate 
on the amendment?
    Mr. Capuano.
    Mr. Capuano. Mr. Chairman, the concept of addressing the 
deficit, I totally agree with. As a matter of fact, I would 
like to point out that the last time we had no deficit was in 
2002. It was a rollcall, November 14, rollcall No. 482, to keep 
the only rule that this Congress ever had that kept us in line 
relative to addressing the deficit was the old PAYGO rules. Not 
the new ones. The old ones. And only 19 Members voted to keep 
those PAYGO rules, because they were tough to do. They applied 
across the board to all programs.
    That is the problem I have with this amendment. It targets 
one program to deal with the deficit.
    I happen to have been one of those 19 people to vote to 
keep the PAYGO rules. I thought it was a huge mistake then. I 
think it is a huge mistake we haven't re-implemented them. And 
I hope we do as we go forward. We have done some, but not tough 
enough for me. I agree that the deficit is a major, major 
problem, and we do need to deal with it, but not on the basis 
of one item at a time. If we are going to do it, which we 
should, we should do it across the board. All programs.
    This is less important than anything else in the entire 
Federal budget. This is the only program we are going to 
target, I can't accept that. I agree all programs should be on 
the table to address the deficit. I may have different 
priorities than this but I am sure we could find different 
compromises where there must be some common ground. We could 
find the programs we can get rid of. Other programs could take 
cuts. We did it before. The country had a surplus before. And 
we can do it again. But we can't do it on the basis of one 
program at a time. And this program, if never funded, won't 
even come close to addressing the deficit problems we have.
    So the concept, in my opinion, is right. The execution is 
too narrow and inappropriate. So I have to oppose the 
amendment.
    The Chairman. I thank the gentleman. Any additional debate 
on the amendment? Mr. Gonzalez.
    Mr. Gonzalez. Well, I need to oppose. And I guess maybe the 
best way to respond to that basic principle, which is a good 
one, but it would appear that the deficit and the national debt 
somehow are attributed to the Democratic Party, the President 
of the United States, and so on.
    So I think I will just quote a Republican instead, David 
Stockman, ``The debt explosion has resulted not from big 
spending by the Democrats but instead the Republican Party's 
embrace about three decades ago of the insidious doctrine that 
deficits don't matter if they result from tax cuts. By fiscal 
year 2009, the tax cutters had reduced Federal revenues to 15 
percent of Gross Domestic Product, lower than they had been 
since the 1940s. Then, after rarely vetoing a budget bill and 
engaging in two unfinanced foreign military adventures, George 
W. Bush surrendered on domestic spending cuts, too, signing 
into law $420 billion in nondefense appropriations, a 65 
percent gain from the $260 billion he had inherited eight years 
earlier.''
    So let us join forces and voices and be true to the 
objective. I really don't see that this particular amendment 
gets us anywhere close to that, especially when you think in 
terms of the funding sources, the potential impact on deficits, 
and such. And not only that, it would frustrate the whole 
purpose in initiating the intent and goal of the bill.
    So I stand in opposition to Mr. Lungren's amendment.
    The Chairman. I thank the gentleman. Any additional debate? 
Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman. I certainly think we 
can get into a long debate on the history and the issues of tax 
cuts. I think it is important to note that if you look at the 
study done on the current deficit, only 14 percent of that is 
attributable to the 2001 and 2003 tax cuts and 50 percent or 
more is attributable to new spending and interest on that new 
spending.
    Mr. Gonzalez. Would you yield on that?
    The Chairman. I yield to Mr. Lungren first.
    Mr. Lungren. I thank the gentleman. I happened to have been 
here serving with Dave Stockman so I may have a different 
interpretation of what the gentleman says. But that is looking 
backward. My amendment establishes a simple principle. Stop 
digging. We can look back and say, it is your fault, it is my 
fault, it is this administration, that administration. I didn't 
say anything about that here.
    The principle I am extending here is that maybe we ought to 
establish a rule that says before we start a new program we 
make sure that it doesn't add to deficit. That is all I am 
saying here.
    The difference between what the gentleman from Texas spoke 
about and what I am speaking about is that this is a new 
program. When you are in debt for your family, the least 
prudent thing that you can do is stop spending on new things 
before you even try and figure out how you take care of your 
old debts. And that is the only principle I have got here.
    So I am not looking backwards. I haven't cast a stone at 
anybody here, Democrats, Republicans. All I know is the problem 
we have got right now, and it just seemed to me to be a fairly 
common sense approach. Before you start paying for a new 
program, make sure you pay for everything else you already 
have. Maybe go back and look at the programs you already have 
and see where you can cut there. But don't add to the problem. 
And that is all I am saying. Quit digging.
    I thank the gentleman for yielding.
    Mr. Harper. I certainly will yield to you, Mr. Gonzalez.
    Mr. Gonzalez. You may consider it spending. Sometimes you 
just have to invest in your democracy. And it is a good 
investment. And it pays dividends like any good investment. So 
I guess it really is your perspective on the faith that you 
have in the democratic process in extending as much opportunity 
to those that want to serve. That is why I am looking at it. 
And if I thought this was a deficit buster and got us deep or 
deeper--and we could go into a debate, and I would with Mr. 
Harper; this is not the time to do it. But I think we have got 
the facts and figures to demonstrate how we got to where we are 
today and the results of the recession. You may say, Well, 
things are bad. As compared to what and where we have been?
    So I don't want to get into that with you guys, but by the 
same token I can't say that we have got the holy grail of 
saying we are not going to do anything new when we know that it 
is a sound investment in our country and its future. And that 
is why I would oppose the amendment, Mr. Chairman.
    And I yield back. And thank you, Mr. Harper.
    Mr. Harper. Mr. Chairman, I yield back.
    The Chairman. Thank you. Any additional debate on the 
amendment? If not, the question is on the amendment. All those 
in favor signify by saying aye. All those against, no. In the 
opinion of the Chair the noes have it.
    Mr. Lungren. I would like a rollcall vote.
    The Chairman. A rollcall, please.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    [No response.]
    The Clerk. Mr. Harper.
    Mr. Harper. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    According to the rollcall votes, the ayes are 2 and the 
nays are 6. The amendment fails.
    Are there any other amendments?
    Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I have an amendment at the desk.
    The Chairman. The gentleman is recognized for 5 minutes, 
and the amendment is read.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Capuano. Thank you, Mr. Chairman. Mr. Chairman, this 
amendment raises an issue that I believe I raised several times 
at previous hearings and other occasions. Though I support the 
concept of the proposal, my problem is I want to make sure to 
the best of my ability that we are not simply taking the power 
of ability to select candidates and shifting that to organized 
groups. I believe that with the current limits of $5 and 1,500 
names, that that simply means that everybody who wants to 
qualify for this has to go and beg for the support of 
preexisting organizations, either party organizations or unions 
or business groups or Internet groups, or whoever it might be, 
we have to beg them for their support. And I say that out of 
personal experience.
    It is hard to do these numbers, it is impossible to do 
them, because Federal law doesn't require us to list who 
donates below $200. So therefore I can't tell exactly how many 
people actually would have gotten 1,500 donations. I can only 
tell what I got. I have--well, I have once. I have never had 
1,500 donations in a given year. And it is because I am not 
beholden to my own party. Different places are different. 
Different candidates are different. I have actually never had 
the support of my party when I needed it. Now they love me when 
I am in, but they have never helped me when I have needed them.
    I have never had the support of organized labor in any real 
serious way--a handful of labor unions--when I have needed 
them. I have never had the support of business groups--well, 
almost never--when I needed them. They all love me when I am 
in, but when I need them, the only people I have gotten support 
from is average, disorganized, regular people who just want a 
change. And I think that they should not be shut out because 
people like me might have trouble getting out to 1,500 people 
at $5 a pop.
    Now I don't know what the number is. My proposal is 500 
people at $50. I also think $5 donations--the best campaign 
donations I have every gotten in my life, and I have been doing 
this now nor over 30 years, were the small donations because 
they mean the most. But they are also not, except for a handful 
of people--in this case it encourages these large organizations 
to get less committed $5 donations from their 1,500 members 
simply so that their hand-selected candidates can qualify.
    I think, and, again, for me, it is a compromise at $50; $50 
says we are truly committed to this individual. And there are 
only a few people who can get $50 donations to 10 different 
candidates in a State so their hand-selected 10 candidates can 
get in. At the same time this amendment says those $5 donations 
are recognized toward the $50,000 limit. Try not do devalue 
them.
    The intent is to say yes, there has to be limits; yes, 
there has to be broad-based support to qualify. I totally agree 
with that concept. The question is where the line should be. 
Without the ability to really look at every candidate--I tried 
and you can't do it because of that $200 nonreporting 
requirement--but trying to get an idea, there would be a lot of 
people, especially in their first campaign, who run for this 
office who would not qualify. And that being the case, I would 
fear that having it at 1,500 people we are simply turning to 
the MoveOns and the unions and the Chamber of Commerce and 
saying, You pick all the candidates. Not the people, you do it.
    Now I think that running around crazy trying to raise money 
is limiting. I would love to find a way to get the self-funders 
limited. We can't do it. I agree. This is another way. I don't 
think it would be a good idea to simply hand the keys over to 
any organization. Though I work well with most of them and I am 
proud to have their support, I don't think we should be putting 
not just ourselves, more importantly our successors in the 
position of having to beg the organized parties or the 
organized labor unions, or the organized Internet groups, or 
whoever it might be, the preexisting ones, by the way, 
otherwise, people like me, I have never joined an organized 
group. And I consider the Democratic Party completely 
disorganized.
    So everybody is different. There are some people who are a 
creation of any one of those groups, Chamber of Commerce, 
union. And that is fine. There is nothing wrong with that. But 
you shouldn't have to be. So that is what this amendment is an 
attempt to do. It is simply trying to say there are people--and 
I think it is a good idea, if we are going to do this, to allow 
the vast majority of people who are not part, or at least not 
beholden, to any organized group to also participate in 
deciding who qualifies and who doesn't. And that is what this 
amendment is intended to do.
    The Chairman. I thank the gentleman. Any additional debate 
on the amendment? Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I understand the point being 
made and I am not sure I am prepared to support this amendment 
today because I am also trying to think on the other side, 
which is that if you are a candidate you can't just be a self-
promoter. It is a group sport.
    I remember when I ran for Congress, I was certainly not 
expected to win. There were big headlines in the San Jose 
Mercury. The day after, everybody was so surprised. How did we 
do it? It was other parents at the school. You can't just put 
your name out there.
    Part of this is getting voters and other people who agree 
to try and change their country. And so it is a balance. You 
don't want someone who really is just looking for a job and 
doesn't have support in his own community or her own community. 
I don't want to say fringe candidates because sometimes fringe 
is in the eye of the beholder. But I would just talk about the 
need if you are going to be a candidate, that you should have 
almost a requirement to go out and connect with the people who 
live in the district that you are offering to represent.
    And whether 1,500 is the magic number, I don't know, 500. I 
would like to discuss this further between now and the floor, 
Mr. Capuano, whether it is $5 or $50. I understand what you are 
saying about Internet groups. But because of the Internet, it 
is so much easier now to reach out through Facebook or through 
e-mails, to touch people and dialogue with them.
    I am not sure that the amendment gets it right. I am not 
certain that the underlying text gets it right. But I am not 
prepared to support the change at this point. But maybe we 
could have some more discussion between now and the floor. And 
I appreciate the gentlemen's comments because they are 
thoughtful ones.
    Mr. Capuano. Would the lady yield?
    Ms. Lofgren. Of course.
    Mr. Capuano. Mr. Chairman, I appreciate that. Again, I am 
not stuck on a magic number. But I will tell you unequivocally, 
that there is no way I will vote for this bill when it comes to 
the floor if it is 1,500. And I will do it because I know how 
many people donated to me in 1998, 752. 752 inspired by me. And 
I did take the trouble to do the best I could to check all the 
people that came into my class and none of them, none of them 
listed 1,500 donors and very few of them listed a whole lot of 
money under the 200, because you have to put in the general 
category. You can guess, but very few of them. I am willing to 
bet, if we could get all the individual documents, you would 
find one or two people who got elected in my class of 1998 who 
actually had 1,500 donors or more. I am not saying 500 is a 
magic number. It is just a number, just like 1,500 is just a 
number.
    As far as the Internet goes, I have just been through the 
Internet. And it is fine, it is great. But it is better for 
incumbents that it is for challengers. When you are an unknown 
person entering a race like I presume you were or others were, 
we are not the only ones who weren't supposed to win, you don't 
have--the great Internet world doesn't just stop because you 
put your name on a Website, send me money. It didn't happen. My 
name is not Barack Obama, I am not running for President, I am 
running for Congress in one small district in Massachusetts. 
The concept is fine and I wish it happened. I did use the 
Internet a lot in my most recent election and it was good. 
Everything said and done, I got a few dollars from people who I 
didn't know. It mostly made it easier for people who were going 
to donate anyway.
    I am not going to push this today because I am not trying 
to be difficult on the issue. But I will be clear as I can that 
1,500 is an unobtainable number for most unassociated, 
unaffiliated. Now, some people think I am a wacko and that is 
fine. Maybe I am a fringe candidate. So be it. And I don't want 
30 people on the ballot either. But there is somewhere between 
being someone who is not beholden to the preexisting groups and 
having to be somebody who has to lay prostate on the ground 
begging them to send me $5 each because they are the ones with 
the e-mail list. They are the ones with people who will send $5 
checks to people they don't know. I wouldn't do it. I will not 
subject America to doing it.
    I am happy to work on this between now and the time it gets 
to the floor. But if it gets to the floor, a person who 
supports this bill will not vote for it because I think with 
these numbers, it makes it worse.
    Mr. Davis of Alabama. Will the gentleman yield?
    Mr. Capuano. I certainly do. It is not my time. It is the 
lady's time.
    Ms. Lofgren. I would be happy to yield.
    Mr. Davis of Alabama. I will be brief. The first thing I 
want to say, Mr. Capuano, is if you remember the 752 who gave 
to you, you probably remember the 752 who did not too. So I do 
not want to be on your bad side.
    On the more serious point that Mr. Capuano makes, this is a 
very important exchange for the many people in the audience who 
care deeply about this issue. There is a myth sometimes, 
particularly on our side of the political world, the 
Democratic-progressive side, that grassroots techniques means 
grassroots results and the grassroots techniques means more 
accessibility, more openness to excluded people. Sometimes 
grassroots techniques means you simply got a big fat mailing 
list that you paid a lot of money for.
    I am 100 percent confident that Mr. Capuano's point is 
correct, that if you enact a campaign finance regime which 
requires a certain number of donors on the theory that that 
creates a more diverse, more representative candidate, what you 
will get is interest group-based politics with large mailing 
lists who go out and who use that to tinker with politics, in 
this case to manipulate and to gather public financing. And it 
makes the obvious point. Every campaign financing reform in the 
history of this country has had unintended consequences, 
whether it is the proliferation of minor candidates who don't 
truly have public support, whether it is political action 
committees that didn't exist in the 1960s and 1950s and today 
pollute politics in many ways, whether it is McCain-Feingold, a 
good piece of legislation leading to all of the unregulated 
independent expenditures that still exist. Every campaign 
finance reform that has been enacted by the Congress in its 
wisdom creates unintended consequences that close circles that 
were thought to be opened up in the system.
    The Chairman. I thank the gentleman. Any other debate on 
the amendment? It is my understanding that, Mr. Capuano, you 
are withdrawing the amendment now?
    Mr. Capuano. Yes, Mr. Chairman. I am happy to withdraw--I 
am not happy, but I am willing. To be seen at a later time.
    The Chairman. Just one note, Mr. Capuano. You may be a 
wacko, but you are our wacko.
    The chair now moves to report H.R. 6116 favorably to the 
House. All those in favor signal by saying aye. Any opposed.
    In the opinion of the chair, the ayes have it. The ayes 
have it and the bill is ordered reported favorably to the 
House. Without objection, the motion to reconsider is laid on 
the table.
    I ask unanimous consent to place certain documents in the 
record. Without objection, it is so ordered.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. All members have 2 additional days provided 
under the rules to file views. Without objection, staff will be 
authorized to make any necessary technical and conforming 
changes in the bill considered today.
    Mr. Lungren. Mr. Chairman, I have 5 items I would like to 
introduce for the record. I think we worked it out with your 
staff and I would ask your permission to enter them en bloc.
    The Chairman. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. With that, the committee now stands 
adjourned.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]

</pre></body></html>
